Memorandum No. D-2010-RAM-014              July 15, 2010




    American Recovery and Reinvestment Act Projects -
    21st Space Wing, Peterson Air Face Base, Colorado
Additional Copies
To obtain additional copies of this memorandum, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/recovery/index.html or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703)
604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFB                          Air Force Base
CDC                          Child Development Center
FAR                          Federal Acquisition Regulation
FBO                          Federal Business Opportunities
FPDS                         Federal Procurement Data System
FSRM                         Facilities Sustainment, Restoration, and Modernization
GAO                          Government Accountability Office
IDIQ                         Indefinite-Delivery, Indefinite-Quantity
MILCON                       Military Construction
OMB                          Office of Management and Budget
USACE                        U.S. Army Corps of Engineers
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGIN IA 22202-4704



                                                                            July 15, 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: American Recovery and Reinvestment Act Projects- 21 st Space Wing,
Peterson Air Force Base, Colorado (Memorandum No. D-2010-RAM-014)

This memorandum provides observations from our audit of selected American Recovery
and Reinvestment Act projects at Peterson Air Force Base, Colorado. The audit included
analysis of support provided by the U. S. Army Corps of Engineers- Omaha District. We
will continue to review DOD's progress and issue subsequent reports and memoranda that
will discuss our evaluation of DOD's implementation of the American Recovery and
Reinvestment Act. We are making no recommendations and do not require a written
response. Therefore, we are publishing this memorandum in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                      ~e8~~  Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
>> This blank page represents the back side of the transmittal memorandum. <<
Memorandum No. D-2010-RAM-014 (Project No. D2009-D000AB-0169.005)           July 15, 2010

                 Results in Brief: American Recovery and
                 Reinvestment Act Projects—21st Space Wing,
                 Peterson Air Force Base, Colorado

What We Did                                        Management Comments
Our overall audit objective was to determine       We provided the Air Force and the U. S. Army
whether DOD appropriately planned and              Corps of Engineers a working draft copy of this
implemented Recovery Act projects.                 report. Neither provided comments.
Specifically, we reviewed the planning, funding,
contracting, and initial project execution of      Figure 1. Child Development Center
Recovery Act projects at Peterson Air Force        Peterson, Air Force Base (Artist Rendition)
Base to determine whether the efforts of the Air
Force complied with Recovery Act
requirements, Office of Management and
Budget guidance, the Federal Acquisition
Regulation, and DOD implementing guidance.
The audit also included analysis of support
provided by the U. S. Army Corps of
Engineers–Omaha District.

What We Found                                      Figure 2. Lighting, gas and pavement repairs
                          st                       on Otis Street, Peterson Air Force Base
We determined that the 21 Space Wing,
Peterson Air Force Base personnel properly
planned and justified the Military Construction
Recovery Act project for a $11.2 million child
development center at Peterson Air Force Base.
We also determined that the 21st Space Wing,
Peterson Air Force Base, and U.S. Army Corps
of Engineers–Omaha District contracting
personnel properly solicited, awarded, and
maintained transparency over 57 Facilities
Sustainment, Restoration, and Modernization
Recovery Act projects, totaling $16 million. In
addition, we determined that the Air Force and
Army personnel properly distributed Recovery
Act funding for the child development center
and 57 Facilities Sustainment, Restoration, and
Modernization Recovery Act projects.

What We Recommended
This report contains no recommendations.
Table of Contents


Introduction                                              1

      Objective                                           1
      Recovery Act Background                             1
      Review of Internal Controls                         4

Proper Planning, Funding, and Execution of Peterson AFB
CDC Recovery Act Project                                  5

Proper Funding and Execution of Peterson AFB
FSRM Recovery Act Projects                                7

Appendices

      Appendix A. Scope and Methodology                   10
             Prior Audit Coverage                         11
      Appendix B. Recovery Act Criteria and Guidance      12
Introduction
Objective
The primary objective of the audit was to determine whether DOD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act, Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009, and subsequent
Recovery Act related guidance. For this audit, we reviewed the planning, funding,
contracting, and initial project execution of Recovery Act projects at Peterson Air Force
Base (AFB), to determine whether the efforts of the Air Force complied with Recovery
Act requirements, and OMB guidance, the Federal Acquisition Regulation (FAR), and
DOD implementing guidance as these relate to Recovery Act requirements. The audit
also included analysis of support provided by the U. S. Army Corps of Engineers–Omaha
District. See Appendix A for a discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
           (1) To preserve and create jobs and promote economic recovery.
           (2) To assist those most impacted by the recession.
           (3) To provide investments needed to increase economic efficiency by
               spurring technological advances in science and health.
           (4) To invest in transportation, environmental protection, and other
               infrastructure that will provide long-term economic benefits.
           (5) To stabilize State and local government budgets, in order to minimize
               and avoid reductions in essential services and counterproductive state
               and local tax increases.
               .         .        .         .       .        .       .

       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements in the following four phases: (1) planning,
(2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act requires
that projects be properly planned to ensure the appropriate use of funds. Review of the
funding phase is to ensure the funds were distributed in a prompt, fair, and reasonable
manner. Review of the project execution phase is to ensure that contracts awarded with
Recovery Act funds were transparent, competed, and contained specific FAR clauses;
that Recovery Act funds were used for authorized purposes; and that instances of fraud,
waste, and abuse were mitigated. Review of the execution phase also ensures that

                                                  1
program goals were achieved, including specific program outcomes and improved results
on broader economic indicators; that projects funded avoided unnecessary delays and
cost overruns; and that contractors or recipients of funds reported results. Review of the
tracking and reporting phase ensures that the recipients’ use of funds was transparent to
the public and that benefits of the funds were clearly, accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements were for:

   •    buying American construction material,
   •    protecting contractor whistleblowers,
   •    publicizing contract actions,
   •    reporting, and
   •    giving the Government Accountability Office and agency Inspectors General
        access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site
(http://www.fedbizopps.gov) to:

    •   identify the actions as funded by the Recovery Act,
    •   post pre-award notices for orders exceeding $25,000,
    •   describe supplies in a clear narrative to the general public, and
    •   provide the rationale for awarding any contracting actions that were not both
        fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables


                                            2
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DOD and the Components issue their implementation
guidance. OMB has issued ten memoranda and one bulletin to address the
implementation of the Recovery Act. See Appendix B for Recovery Act criteria and
guidance.

DOD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DOD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization (FSRM); Homeowners Assistance; Military Construction
(MILCON); Near Term Energy-Efficient Technologies; and U.S. Army Corps of
Engineers (USACE) Civil Works.

The values of the six Recovery Act programs are shown in the following table.
         DOD Agency-Wide and Program-Specific Recovery Act Programs
                             Program                          Amount
                                                            (in millions)
     Energy Conservation Investment                               $120
     Facilities Sustainment, Restoration, and Modernization      4,260
     Homeowners Assistance                                         555
     Military Construction                                       2,185
     Near Term Energy-Efficient Technologies                       300
     U.S. Army Corps of Engineers Civil Works                    4,600
        Total                                                 $12,020

The Recovery Act divides the approximately $12 billion among 32 DOD and USACE
line items of appropriations.

Air Force Space Command Mission
Air Force Space Command, created September 1, 1982, is an Air Force major command
with headquarters at Peterson AFB, Colorado. Air Force Space Command provides
military focused space and cyberspace capabilities with a global perspective to the Joint
warfighting team. The mission of the Air Force Space Command “is to provide an
integrated constellation of space and cyberspace capabilities at the speed of need.”

21st Space Wing, Peterson AFB Mission and Functions
The 21st Space Wing headquartered at Peterson AFB, Colorado, is the Air Force’s only
organization providing missile warning and space control to unified commanders and


                                            3
combat forces worldwide. The 21st Space Wing stated mission is to conduct precise and
disciplined missile warning, missile defense, and space control operations; professionally
operate, support, and protect our installations while teaming with mission partners; and
develop, deploy, and care for our Warrior Airmen who defend America and our Allies.

The DOD Recovery Act plan included one MILCON project, valued at $11.2 million, to
design and construct a child development center (CDC) on Peterson AFB. The scope of
the work included a parking lot, sidewalks, landscaping, playground, utility extensions,
and antiterrorism and force protection requirements. The project is located in the East
Area of Peterson AFB.

The DOD Recovery Act plan included 62 FSRM projects at Peterson AFB with an
approximate $19 million value. Examples of these projects included construction of a
dorm support facility, construction of aircraft support system, sustainment of auto shop
unit heaters, and installation of air conditioning in lodging building 1030.

U.S. Army Corps of Engineers–Omaha District
We performed a contracting review of one MILCON and 28 FSRM Peterson AFB
Recovery Act projects implemented by the USACE–Omaha District. The USACE–
Omaha District provides a full range of construction management and contract support
services for the Army, Air Force, other assigned U.S. Government agencies, and foreign
governments

Review of Internal Controls
The 21st Space Wing’s and the USACE–Omaha District internal controls over the
planning, funding, contracting, and initial execution of Peterson AFB Recovery Act
projects subject to our review were effective as they applied to the audit objectives.




                                             4
Proper Planning, Funding, and Execution of
Peterson AFB CDC Recovery Act Project
The 21st Space Wing personnel properly planned and justified the $11.2 million
MILCON Recovery Act CDC project at Peterson AFB. The Office of the Assistant
Secretary of the Air Force, Financial Management and Comptroller personnel properly
distributed Recovery Act funding to the U.S. Army Corps of Engineers. In addition,
USACE–Omaha personnel properly solicited and awarded a contract for the project. The
project solicitation was transparent, competed, awarded as a firm-fixed-price contract,
and contained the specified Recovery Act FAR clauses.

Planning
The 21st Space Wing personnel properly justified and adequately planned the CDC
Recovery Act project. Project justifications were contained in DD Form 1391, “Military
Construction Project Data.” DOD Regulation 7000.14-R, “Financial Management
Regulation,” requires DOD Components to use a DD Form 1391 to support the request
for authorization of both new construction and urgent unforeseen projects using
emergency or contingency authorization. Two specific sections of the form provided the
proposed project requirement details and how the current mission would benefit from the
proposed project. Item 10, “Description of Proposed Construction,” requires a clear and
concise description of the proposed construction including a complete outline of all
principal features of the work. Item 11, “Requirement,” provides a detailed, informative
statement of why the project is needed, how and under what conditions the requirement
was presently being met, and the manner and extent to which mission accomplishment
would be affected if the project were not approved. We concluded that DD-1391 items
10 and 11 provided a clear and concise description of the proposed CDC construction, a
complete outline of all principal features of the work, and an informative explanation of
the reasons for the project.

We confirmed that the CDC project justification was supported by an April 2006 report,
“21st Services Squadron Facility Utilization Survey Space Requirements Report,” that
showed that the current Peterson AFB CDC and annex combined had 30 percent less
space than required to fulfill its mission. As of September 16, 2009, the Peterson AFB
Immediate Care Waiting List showed 59 children waiting for placement in the existing
CDC. The lack of adequate facilities and the inability to provide child care to all
personnel is a hardship to base personnel.

Funding
The Office of the Assistant Secretary of the Air Force, Financial Management and
Comptroller, personnel properly distributed the Recovery Act funding for the Peterson
AFB CDC Recovery Act project to the USACE. On August 3, 2009, the Assistant
Secretary of the Air Force, Financial Management and Comptroller, personnel issued a
Budget Authorization/Allocation document for $11.2 million of MILCON Recovery Act
funding to the Headquarters, USACE, to fund the CDC Recovery Act project. On

                                            5
August 14, 2009, the Headquarters, USACE, personnel issued a Funding Authorization
document for $11.2 million of Air Force MILCON Recovery Act funding to the
USACE–Omaha District to fund the Peterson AFB CDC project contract. Timely
distribution of the CDC MILCON Recovery Act funds led to timely execution of the
CDC Recovery Act project.

Execution of CDC Project by USACE–Omaha District
The USACE–Omaha District contracting personnel properly solicited and awarded the
contract for the Peterson AFB CDC Recovery Act project.

To make sure the transactions related to this Recovery Act project were transparent, the
USACE–Omaha District contracting personnel posted a pre-solicitation notice on FBO.
The pre-solicitation notice contained the required Recovery Act language. The synopsis
in the pre-solicitation notice clearly explained the nature of the work and the award
methodology. In addition, the solicitation included the required Recovery Act FAR
clauses.

The USACE–Omaha District contracting personnel competed the project and received
eight proposals. The USACE–Omaha contracting office awarded a firm-fixed- price
contract on September 29, 2009, in the amount $8.1 million for the CDC Recovery Act
project. The contract award was posted on FBO. The contract incorporated the required
FAR clauses for the Recovery Act. The DOD expenditure plan authorized $11.2 million
for the CDC Recovery Act project. The contract award resulted in a bid savings of
$3.1 million (the amount approved on the DOD expenditure plan minus the contract
award). Office of the Air Force Civil Engineer personnel told us that they were planning
to use those funds for additional Recovery Act MILCON projects.

CDC Project is within Cost and on Schedule
The MILCON project to design and construct a CDC on Peterson AFB was awarded on
September 29, 2009, in the amount $8.1million. The notice to proceed for the contractor
was issued on October 22, 2009. The estimated time to project completion is 480 days.
The planned completion date is February 14, 2011. The project is proceeding within
planned project costs and schedule.

CDC Project Tracking and Reporting
We did not review tracking and contractor reporting of the subject contract because of the
time constraints of our Peterson AFB and USACE–Omaha District on-site reviews. We
will review recipient reporting of selected Air Force Recovery Act actions in future
memoranda.




                                            6
Proper Funding and Execution of Peterson
AFB FSRM Recovery Act Projects
DOD approved 62 FSRM Recovery Act projects at Peterson AFB. We reviewed 57,
totaling $16 million, of the 62 FSRM projects. The Office of the Assistant Secretary of
the Air Force, Financial Management and Comptroller personnel properly distributed
Recovery Act funding to the U.S. Army Corps of Engineers for execution of FSRM
projects at Peterson AFB. In addition, the Air Force Space Command personnel properly
distributed Recovery Act funding to the 21st Space Wing for execution of FSRM projects
at Peterson AFB. The 21st Space Wing and USACE–Omaha District contracting
personnel properly solicited and awarded task orders for the 57 FSRM Recovery Act
projects. The project solicitations were transparent, competed, awarded as fixed-price
task orders on existing multiple-award task order contracts, and contained the specified
Recovery Act FAR clauses.

Funding
We reviewed the funding for FSRM Recovery Act projects at Peterson AFB. The Office
of the Assistant Secretary of the Air Force, Financial Management and Comptroller
personnel properly distributed Recovery Act funding to the U.S. Army Corps of
Engineers. On May 15, 2009, the Assistant Secretary of the Air Force, Financial
Management and Comptroller, personnel issued a Budget Authorization/Allocation
document that provided FSRM Recovery Act funding to Headquarters, USACE. On
June 5, 2009 and September 21, 2009, Headquarters, USACE, personnel issued a
Funding Authorization document that provided FSRM Recovery Act funding to USACE–
Omaha District to execute FSRM Recovery Act projects at Peterson AFB.

The Air Force Space Command personnel properly distributed the Recovery Act funding
for the Peterson AFB FSRM Recovery Act projects. On April 2, 2009, the Air Force
Space Command issued a Budget Authorization/ Allocation document that provided
FSRM Recovery Act funding to the 21st Space Wing to execute FSRM Recovery Act
projects at Peterson AFB. Timely distribution of the FSRM Recovery Act funds led to
timely execution of the FSRM projects.

Execution
We reviewed the project execution for 57 of the 62 FSRM Recovery Act projects at
Peterson AFB. The 21st Space Wing contracting personnel properly solicited and
awarded task orders for 29 of the 57 FSRM Recovery Act projects at Peterson AFB.
USACE–Omaha District contracting personnel properly solicited and awarded task
orders for 28 of the 57 FSRM Recovery Act projects at Peterson AFB.

21st Space Wing ensured transparency on FBO
To ensure the transactions related to the 29 FSRM recovery act projects solicited at
Peterson AFB were transparent, the 21st Space Wing contracting personnel posted
pre-solicitation notices on FBO. The pre-solicitation notices contained the required

                                            7
Recovery Act language, informed the public that this notice was provided for information
purposes only, and this opportunity was available only to contractors under the two
existing simplified acquisition base engineering requirement indefinite-delivery,
indefinite-quantity (IDIQ) contracts FA2517-05-D-5001/5002 identified in each
solicitation. The resulting task order awards were properly posted on FBO. The two
existing simplified acquisition base engineering requirement IDIQ contracts were
modified to include the required Recovery Act FAR clauses.

USACE–Omaha District personnel ensured transparency on FBO
To ensure the transactions related to the 28 Peterson AFB FSRM Recovery Act projects
solicited by USACE–Omaha District were transparent, USACE–Omaha District
contracting personnel posted pre-solicitation notices on FBO. The pre-solicitation
notices included the word “Recovery” in the title and informed the public that the
opportunities were only available to the specific contractors on existing multiple-award
task order IDIQ contracts identified in each solicitation. The pre-solicitation notices
listed the projects that were to be awarded on the task order under the solicitation.

The contract awards were also posted on FBO. The award notices included the word
“Recovery” in the title and when required informed the public that the task orders were
awarded on the existing multiple-award task order IDIQ contracts. The award notices
listed the multiple Peterson AFB projects for each task order and the total task order
award amount.

The memorandum from the Director, Defense Procurement and Acquisition Policy,
“Posting and Reporting Requirements for the American Recovery and Reinvestment Act
of 2009,” dated August 19, 2009, revised the award notice reporting requirements and
stated that award notices that use multiple Recovery Act Treasury Account Symbols or
project numbers are not allowed.

The award notices listed the multiple Peterson AFB projects for each task order and the
total task order award amount. The task order award notice for 4 of the 28 Recovery Act
projects awarded on July 8, 2009, met the reporting requirements at the time of award.
However, the task order award notices for the 11 Recovery Act projects awarded on
September 10, 2009, and the 13 Recovery Act projects awarded on November 25, 2009,
did not meet the revised award notice reporting requirements that disallowed multiple
Recovery Act Treasury Account Symbols or project numbers on award notices. To
provide transparency by project (the intent of the guidance) we asked USACE–Omaha
District contracting personnel to amend the award notices to include a list of the
Recovery Act projects and contract amounts per project. On February 17, 2010,
USACE–Omaha District contracting personnel amended the FBO award notice for the
11 projects to include a list of the contract amount for each Recovery Act project. On
February 22, 2010, USACE–Omaha District contracting personnel amended the FBO
award notice for the 13 projects to include a list of the contract amount for each Recovery
Act project.




                                            8
USACE–Omaha District contracting personnel included the required FAR clauses for the
Recovery Act within the task order award for each of the three existing multiple-award
IDIQ contracts.

The 21st Space Wing and the USACE–Omaha District contracting personnel competed
the FSRM Recovery Act projects at Peterson AFB, issuing task orders to existing
simplified acquisition base engineering requirement and IDIQ contracts. Each of the five
contracts are multiple-award contracts with the task orders competed between the
existing contractors on each contract. The contracts and/or contractors eligible for each
task order were identified in the pre-solicitation notices.

The contracting offices awarded firm-fixed-price task orders for the 57 FSRM Recovery
Act projects at Peterson AFB on 5 existing contracts between April 15, 2009, and
November 25, 2009, for approximately $16 million.

FSRM Projects Tracking and Reporting
We did not review tracking and contractor reporting of the subject contracts because of
the time constraints of our Peterson AFB and USACE–Omaha District on-site reviews.
We will review recipient reporting of selected Air Force Recovery Act actions in future
memoranda.




                                            9
Appendix A. Scope and Methodology
We conducted this audit from September 2009 through June 2010 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

Scope
We selected 58 Recovery Act projects at Peterson AFB, one MILCON and 57 FSRM
projects for review. The 21st Space Wing civil engineering personnel estimated the CDC
MILCON project would cost $11.2 million and the USACE–Omaha District awarded a
contract for $8.1 million. In addition, the 21st Space Wing civil engineering personnel
estimated the 57 FSRM projects at Peterson AFB to cost approximately $18.6 million and
the 21st Space Wing and the USACE–Omaha District contracting personnel awarded
IDIQ contract task orders for around $16 million.

Methodology
Our overall audit objective was to evaluate DOD’s implementation of plans for the
Recovery Act of 2009. To accomplish our objective, we audited the planning, funding,
and initial project execution of Recovery Act projects at the 21st Space Wing, Peterson
AFB, to determine whether the efforts of the Air Force complied with Recovery Act
requirements, OMB guidance, the FAR, and DOD implementing guidance. The audit
also included analysis of support provided by the U. S. Army Corps of Engineers–Omaha
District. Specifically, we determined whether:

   •   the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
   •   funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding);
   •   contracts contained required Recovery Act FAR clauses (Project Execution);
   •   projects avoided unnecessary delays and cost overruns (Project Execution); and
   •   recipients’ use of funds was transparent to the public (Reporting).

Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DOD Office of Inspector General analyzed all DOD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. We selected most audit projects and
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment, and other quantitatively developed risk indicators. We used
information collected from all projects to update and improve the risk assessment model.
We selected 83 projects with the highest risk rankings; auditors chose some additional
projects at the selected locations.


                                           10
We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by USACE.

The CDC MILCON Recovery Act project reviewed at Peterson AFB was one of the
83 projects selected. However, the 57 FSRM Recovery Act projects reviewed at
Peterson AFB were not part of the selected 83 projects. We did not review the planning
or cost and schedule for the additional 57 FSRM Recovery Act projects.

Use of Computer-Processed Data
We used computer-processed data to complete this audit. Specifically, we used the
notices on FBO, data reported from FPDS, the Air Force Recovery Act Financial and
Activity Report, posted from March 2009 through February 2010. We tested the
accuracy of this data by comparing the project data reported on different systems for
consistency and also by meeting with program officials responsible for reporting on the
applicable Recovery Act requirements. Our audit was focused on the reporting of
contract actions on specific Air Force projects. From these procedures, we concluded
that the DOD data were sufficiently reliable for our purposes.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                           11
Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria documents (notes appear at
the end of the list):

   •   U.S. House of Representatives Conference Committee Report 111-16, “Making
       Supplemental Appropriations for Job Preservation and Creation, Infrastructure
       Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
       State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
       2009, and for Other Purposes,” February 12, 2009

   •   Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
       February 17, 2009

   •   OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
       Recovery and Reinvestment Act of 2009,” February 18, 2009

   •   OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
       Reinvestment Act of 2009 Appropriations,” February 25, 2009

   •   White House Memorandum, “Government Contracting,” March 4, 2009

   •   White House Memorandum, “Ensuring Responsible Spending of Recovery Act
       Funds,” March 20, 2009

   •   OMB Memorandum M-09-15, “Updated Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009,” April 3, 20091

   •   OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
       With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   •   OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
       Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   •   OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
       of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
       June 22, 20092

   •   OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
       with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   •   OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
       September 11, 2009

                                           12
    •    OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
         Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
         Clause 52.204-11,” September 30, 20092

    •    OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
         and Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of
         Job Estimates,” December 18, 20092

    •    OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
         and Reinvestment Act,” March 22, 20102

    •    White House Memorandum, “Combating Noncompliance With Recovery Act
         Reporting Requirements,” April 6, 20102

    •    OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
         Compliance under the American Recovery and Reinvestment Act,” May 4, 20102

End Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                     13
